IN THE
Supreme Court of the United States

CYNTHIA STIGER,
Petitioner
vs.
UNITED STATES OF AMERICA,
Respondent

CERTIFICATE OF SERVICE

Pursuant to Supreme Court Rules 29.4(a) and 29.5(a), I hereby certify that true
copies of the Petition for a Writ of Certiorari, Appendix, and Petitioner’s Motion for
Leave to Proceed In Forma Pauperis, were sent to counsel for Respondent United
States of America by electronic mail on June 21, 2021.
Solicitor General of the United States
Department of Justice
950 Pennsylvania Ave., N.W., Room 5616
Washington, DC 20530-0001
email: SupremeCtBriefs@usdoj.gov
/s/

Gregory Sherwood
Counsel of Record for
Petitioner Cynthia Stiger

email: gsherwood@mail.com

